HHS/OIG, Audit - "Noridian's Medicare Final Administrative Cost proposals
for Fiscal Years 2004 Through 2006," (A-07-07-02717)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Noridian's Medicare Final
Administrative Cost Proposals for Fiscal Years 2004 Through 2006,"
(A-07-07-02717)
November 30, 2007
Complete Text of Report is available in PDF format (497 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Noridian reported expenditures that were reasonable,
allocable, and allowable in accordance with the Federal Acquisition Regulation
and the Medicare contract provisions.  Consequently, this report contains
no recommendations.